<

*

^ ft;/

8890

/ —r

i

IN THE
SUPREME COURT OF THE UNITED STATES

Supremo Court, U.S.
FILED

jjU' 2 t 232!
CrrF!i"-E OF TKE CLERK

NO.

EMEM UFOT UDOH,
Petitioner,
vs.
NATE KNUTSON, Warden, Moose Lake,
Respondent.

ON PETITION FOR WRIT FOR CERTIORARI TO REVIEW THE
USCA8 CONSOLIDATED CASE NOS. 20-2949 AND 20-3033
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:19-CV-1311 (MJD/HB)

PETITION FOR WRIT OF CERTIORARI
JONATHAN P. SCHMIDT
Hennepin County Attorney’s Office
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

EMEM U. UDOH
MCF - Rush City
7600 525™ Street
Rush City, MN 55069

KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower, Suite 1800
445 Minnesota Street
St. Paul, MN 55101 RESPONDENT

PRO SE PETITIONER

QUESTIONS PRESENTED FOR REVIEW
In light of the recent binding precedent of this court, dated April 17, 2018, in
Session v. Dimaya, 200 L. Ed 2d 549, 138 S Ct. 1204, affirming the Ninth Circuit
holding that 18 U.S.C. § 16(b), as incorporated in the Immigration and Nationality
Act, is unconstitutional vague, the second question presented for review on grounds
consistent with Petitioner’s actual innocence is:
1. Whether The Supreme Court holding in Session v. Dimaya vacates each and
every administrative allegations and charges bearing upon the “residual
clause” of 18 U.S.C. §16(b) as a “crime of violence” by Respondent because the
April 17 holding provided that the residual clause of 18 U.S.C. § 16(b) defining
“crime of violence” was unconstitutionally vague - that is, too arbitrary and
indistinct to comport with the constitution’s guaranteed of due process. Id,
1212 - 13? And In light of the January 20 - 22. 2021 Executive^ Order Of
President Joseph R. Biden That Bans Deportation Or Removability?
Undisputed facts show the presence of COVID-19 virus at the Rush City
Facility where

Petitioner

is

currently

detained by

Respondent.

See

the

Memorandum(s) filed in the district court record regarding the positive COVID-19
cases found in Rush City Facility in Udoh v. Knutson, Civil No. 0:19-CV1311(MJD/HB), Docket No. 106 at 11; Udoh v. Dooley, Civil No. 0:16-CV-4174
(PAM/HB), as well as, in the Administrative Record. The third, fourth and fifth
questions presented for review on grounds consistent with Petitioner’s actual
innocence is:
2. Whether The Board Of Immigration Appeal Should Have Granted
Petitioner’s Request For Extension Of Time Due To Petitioner’s Lack Of
Access To The Prison Law Library Resulting From The Spread Of Covid-19
Coronavirus Pandemic In Minnesota Department Of Corrections in light of
Bound v. Smith, 430 U.S. 817 (1977); and Flittie v. Solem, 827 F.2d 276, 280
(8th Cir. 1987)? And In light of the January 20 - 22. 2021 Executive Order Of
President Joseph R. Biden That Bans Deportation Or Removability?

Petition By Udoh - Page ii

3. Whether The Board Of Immigration Appeal Should Have Granted
Petitioner’s Request For Extension Of Time To Obtain The Record And
Transcripts Of The Immigration Hearings To Fully And Fairly Present His
Case For Reopening In Light of Bound v. Smith, 430 U.S. 817 (1977)? And In
light of the January 20 - 22. 2021 Executive Order Of President Joseph R.
Biden That Bans Deportation Or Removability?
4. Whether The Board Of Immigration Appeal June 24, 2020 Order That
Affirmed The In-Absentia Order Is Invalid In Light Of (A) Petitioner’s Actual
Innocence Clearly Demonstrated In The Administrative Record (B)
Petitioner’s Ongoing Proceedings In State And Federal Courts; (C)
Petitioner’s Notification To The Court Of This Change Of Address On
February 2019 Pursuant To 8 U.S.C.S. §1305; (D) The Fact That Notice To
Appear And Hearing Was Not Sent To Petitioner’s Address After The Change
As Required Under 8 U.S.C.S. §1229(A); And (E) This Absentia Order
Violates Petitioner’s Due Process For Failure To Notify Petitioner Of His
Hearing And To Appear Even Where Petitioner Never Spoke Or Saw A
Judge, Was Never Call Or Subpoenaed To Any Hearing, Never Participated
Or Consented In Any Telephonic Conference In light of Ghounem v. Ashcroft,
378 F.3d 740 (8th Cir. 2004); Williams - Igwonobe v. Gonzales, 437 F.3d 453
(5th Cir. 2006)? And In light of the January 20 - 22. 2021 Executive Order Of
President Joseph R. Biden That Bans Deportation Or Removability?

Petition By Udoh - Page iii

I

(

i

X

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

'\

Petition By Udoh - Page iv

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

II

LIST OF PARTIES..........................................

IV

TABLE OF CITED AUTHORITIES.............

VII

STATEMENT OF JURISDICTION

1

OPINIONS BELOW

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

STATEMENT OF THE FACTS

5

A. Newly Discovered Evidence of Witnesses’ Recantation Discovered In
5
Petitioner’s Post-Conviction In 2018
Error! Bookmark not defined.
B. First Evidentiary Hearing In 2018
C. The Recanting Witnesses’ (K.K.W., and K.C.W.) Were Apprised Of Their
Error! Bookmark not defined.
Fifth Amendment Right
D. Evidentiary Hearing Testimony Of The Recanting Witnesses’ (K.K.W.,
and K.C.W.) For Newly Discovered Evidence, And To Vacate The
6
Judgement And Order............................................. :..............
7
E. Appellant’s Ongoing Cases In State And Federal Courts
REASONS FOR GRANTING THE WRIT
I.

7

CONSIDERATION BY THIS COURT IS NECESSARY UNDER THE
FUNDAMENTAL MISCARRIAGE OF JUSTICE EXCEPTION BASED ON
THE NEWLY DISCOVERED EVIDENCE OF ACTUAL INNOCENCE ON:
ADMISSION OF EVIDENCE AND PROSECUTORIAL
GROUND 4
MISCONDUCT ON IMPROPER CREDIBILITY VOUCHING BECAUSE
THESE CONSTITUTIONAL VIOLATIONS “RESULTED IN THE
CONVICTION OF ONE WHO IS ACTUALLY INNOCENT” UNDER
MCQUIGGIN V. PERKINS 133 S. Ct. 1924 (2013).Error! Bookmark not
defined.
II. THE BOARD OF IMMIGRATION APPEAL SHOULD HAVE GRANTED
PETITIONER’S REQUEST FOR EXTENSION OF TIME DUE TO
PETITIONER’S LACK OF ACCESS TO THE PRISON LAW LIBRARY
RESULTING FROM THE SPREAD OF COVID-19 CORONAVIRUS
10
PANDEMIC IN MINNESOTA DEPARTMENT OF CORRECTIONS
III. THE BOARD OF IMMIGRATION APPEAL SHOULD HAVE GRANTED
PETITIONER’S REQUEST FOR EXTENSION OF TIME TO OBTAIN THE
RECORD AND TRANSCRIPTS OF THE IMMIGRATION HEARINGS TO
11
FULLY AND FAIRLY PRESENT HIS CASE FOR REOPENING

Petition By Udoh - Page v

IV. THE LOWER COURT JUDGEMENT THAT AFFIRMED THE IN-ABSENTIA
ORDER SHOULD BE VACATED IN LIGHT OF: (A) PETITIONER’S
ACTUAL INNOCENCE
CLEARLY DEMONSTRATED
IN THE
ADMINISTRATIVE
RECORD;
(B)
PETITIONER’S
ONGOING
PROCEEDINGS IN STATE AND FEDERAL COURTS; (C) PETITIONER’S
NOTIFICATION TO THE COURT OF THIS CHANGE OF ADDRESS ON
FEBRUARY 2019 PURSUANT TO 8 U.S.C.S. §1305; (D) THE FACT THAT
NOTICE TO APPEAR AND HEARING WAS NOT SENT TO PETITIONER’S
ADDRESS AFTER THE CHANGE AS REQUIRED UNDER 8 U.S.C.S.
§ 1229(A); AND (E) THIS ABSENTIA ORDER VIOLATES PETITIONER’S
DUE PROCESS FOR FAILURE TO NOTIFY PETITIONER OF HIS
HEARING AND TO APPEAR EVEN WHERE PETITIONER NEVER SPOKE
OR SAW A JUDGE, WAS NEVER CALL OR SUBPOENAED TO ANY
HEARING, NEVER PARTICIPATED OR CONSENTED IN ANY
13
TELEPHONIC CONFERENCE
25

CONCLUSION.....................................

.W

/

Petition By Udoh - Page vi

TABLE OF CITED AUTHORITIES
Cases

Bound v. Smith, 430 U.S. 817 (1977)..................................
Dada v. Mukasey, 554 U.S. 1 (2008)....................................
Flittie v. Solem, 827 F.2d 276, 280 (8th Cir. 1987)............
Ghounem v. Ashcroft, 378 F.3d 740 (8th Cir. 2004)...........
House v. Bell, 547 U.S. 518 (2006).......................................
Kucana v. Holder, 558 U.S. 233 (2010)...............................
Miah v. Mukasey, 519 F.3d 784, 789, n.l (8th Cir. 2008)
Pereira v. Session, 138 S.Ct. 2015 (2018)...........................
Schlup v. Delo, 513 U.S. 298, 316 (1995)............................
Sugule v. Frazier, 639 F.3d 406 (8th Cir. 2011)................

Petition By Udoh - Page vii

iii, 26, 27
.... 24, 28
....23, 26
....24, 35
ii, 24
24
24
24
ii, 24
24

IN THE
SUPREME COURT OF THE UNITED STATES
No.___-_______

EMEM UFOT UDOH,
Petitioner,
vs.
NATE KNUTSON, Warden, Moose Lake,
Respondent.

ON PETITION FOR WRIT FOR CERTIORARI TO REVIEW THE
USCA8 CONSOLIDATED CASE NOS. 20-2949 AND 20-3033
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:19-CV-1311 (MJD/HB)

Petitioner, Emem Ufot Udoh, respectfully petition for a Writ of Certiorari to review the
judgment of the Eighth Circuit Court of Appeals entered on October 27, 2020 in this case.
STATEMENT OF JURISDICTION
Petitioner filed a Motion to reopen the order entered In-Absentia on April 19, 2019. The
Board of Immigration Appeal for the United States Department of Justice affirmed the denial
Petitioner’s motion on June 24, 2020. The Eighth Circuit Court of Appeals entered its judgment
on October 27. 2020. and denied Petitioner’s petition for Rehearing on December 04. 2020. See
USCA8 No. 20-3033 and 20-2949, and Appendix.
On March 19, 2020, this Court extended the deadline to file petitions for writ of certiorari
in all cases due on or after the date of that March 19, 2020 order to 150 days from the date of the
lower court judgment due to the ongoing public health concerns relating to COVID-19. See
(ORDER LIST): 589 U.S.

Appendix By Udoh - Page - 1

(March 19, 2020). Therefore, Petitioner’s petition for writ of

certiorari is due by May 4. 2021 under this Court’s March 19, 2020 Order. This Court’s
jurisdiction is invoked under 28 U.S.C §1254(1) and §1254(2).
OPINIONS BELOW
The opinion and judgment of the Eighth Circuit Court of Appeals is unpublished and
appears in Udoh v. Wilkinson, 2021 U.S. App. LEXIS 3660, 2021 WL 485729,

Fed. Appx.

(8Th Cir. Minn., February 10, 2021). See USCA8 Case No. 20-2389 and See USCA8 No. 20-3033
and 20-2949, and Appendix.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The constitutional provisions and claims involved in this case are the Fifth Amendment, which
provides in relevant part:
“No person shall be held to answer for a capital, or otherwise infamous crime, ... nor shall
any person be subject for the same offence to be twice put in jeopardy of life or limb; ... nor
be deprived of life, liberty, or property without due process of law ... .”
and the Fourteenth Amendment of the Constitution, which provides in relevant part:
“No State shall ... deprive any person of life, liberty or property without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.”
STATEMENT OF THE CASE
Petitioner filed a Motion to reopen the order entered In-Absentia on April 19, 2019. The
Board of Immigration Appeal for the United States Department of Justice affirmed the denial
Petitioner’s motion on June 24, 2020. The Eighth Circuit Court of Appeals entered its judgment
on February 10. 2021, See USCA8 No. 20-2389 and See USCA8 No. 20-3033 and 20-2949, and
Appendix.
On May 2019, Petitioner filed a 28 U.S.C §2241 Actual Innocence Petition regarding the
InAbsentia Order and the Magistrate Judge held that Petitioner alleged that Respondent’s action
in entering an In-Absentia order in April 2019 amounts to a violation of his constitutional rights.
Petition By Udoh - Page 2

See the Federal Magistrate Judge Report and Recommendation in Udoh v. Knutson, 2019 WL
5150141 (D. Minn. May 31, 2019). Petitioner also included the Magistrate Judge holding to his
Motion to ReOpen and to the Board of Immigration Appeal in an enclosed Pages 1 through 4.
The Magistrate Judge Dismissed the Petition because Petitioner has not exhausted his
administrative remedies with regards to this issue:
§2241 Actual Innocence (Ground Twenty Two): The Absentia Order is Invalid in light of (a)
the issues raised in Grounds One through Twenty One, (b) Petitioner’s actual innocence
clearly demonstrated in Exhibit 2, (c) Petitioner’s ongoing proceedings in State and Federal
Courts, (d) Petitioner’s notification to the Court of this Change of Address on February 2019
pursuant to 8 U.S.C.S. §1305, (e) the fact that Notice to Appear and Hearing was not sent to
Petitioner’s address after the Change as required under 8 U.S.C.S. § 1229(a), and (I) this
Absentia Order violates Petitioner’s due process for failure to notify Petitioner of his Hearing
and to Appear even where Petitioner never spoke or saw a Judge, was never call or
subpoenaed to any hearing, never participated or consented in any telephonic conference.
On August 28, 2019, in this case, the District Court in Udoh v. Knutson, 2019 WL 4073392
*1 - 10, *3 (D. Minn. August 28, 2019) held that because the court adopts the Report and
Recommendation and dismisses Petitioner’s petition, Petitioner’s motion for injunctive relief is
denied as moot. Additionally, because the court has dismissed Petitioner’s claims, Petitioner’s
requests to stay State and immigration proceeding and to release Petitioner pending this district
court’s decision on those claims are moot. The District Judge further held that Petitioner’s
motion for extension of time and application to proceed in the district court without prepaying
fees or cost is denied as moot. Id at *8. Because Petitioner’s petition is dismissed, his IFP
application is denied as moot. Id at *8.
On September 18, 2019, in this case, the District Court in Udoh v. Knutson, 2019 WL
5620406 *4 (D. Minn. September 18, 2019) held that, Petitioner’s request for reconsideration of
the district court’s denial of his extension of time to file objections to R & R (Doc. No. 55) and
Petitioner’s motion to reconsider (Doc. No. 56) are denied.
Petition By Udoh - Page 3

On May 31, 2019, in this case, the Magistrate Court in Udoh v. Knutson, 2019 WL
5150141 *3 (D. Minn. May 31, 2019) recognized Petitioner’s ongoing removal or immigration
proceeding that have been carried out in absentia, in violation of Petitioner’s due process rights.
This is an adverse collateral legal consequences imposed on the basis of the challenged
conviction. The District Court in Udoh v. Knutson, 2019 WL 4073392 *1 — 10 (D. Minn. August
28, 2019) also recognized this adverse collateral legal consequences.
On May 31, 2019, in this case, the Magistrate Judge in Udoh v. Knutson, 2019 WL
5150141 *2 (D. Minn. May 31, 2019) recognized Petitioner’s claims “including prosecutorial
misconduct, ineffective assistance of counsel, and newly discovered evidence,” but that Petitioner
has not received the necessary authorization from this appellate court to consider the 28 U.S.C.
§2241 habeas petition claims challenging the validity of his state convictions. Id at *3.
Petitioner, Emem Ufot Udoh. also certify to the Board of Immigration Appeal in an
Affidavits that on February 22, 2019, Petitioner was on a Writ to a State Court Hearing at
Hennepin County Court and his address changed. See the Record of Medical Evidence In
Support of Petitioner’s Renewed Rule 60(B)(6) Motion To Show That He Was At Hennepin
County Medical Center (HCMC) And Did Not Receive Any Notice Of Appearance For Hearing
From Respondent Or The Court in the Appendix at 1 through 8.
Pursuant to 8 U.S.C.S. §1305, Petitioner notified the Court and DHS of this change of
address. 8 U.S.C.S. §1305 requires only a written notice of change of address, but no Notice to
Appear was sent to Petitioner’s new address for the March 6, 2019 or April 17, 2019 hearing.
Petitioner did not receive any Notice to Appear for March 6, 2017 or April 17, 2019 hearing as
required under 8 U.S.C.S. §1229(a) from DHS. This violates Petitioner’s due process clause for
failure to notify Petitioner of his Hearing as required by 8 U.S.C.S. §1229(a) in light of
Petition By Udoh - Page 4

4

Contreras-Rodriguez v. United States AG, 462 F.3d 1314 (11th Cir. 2006)(held a motion to reopen
in absentia proceeding can be made at any time if the Petitioner can show that he did not receive
notice. 8 C. F. R. §1002.23(b)(4)(h)).
Petitioner, Emem Ufot Udoh. also certify to the Board of Immigration Appeal in an
Affidavits that he did not consent to any telephonic conference and no video conference was held
as required by 8 U.S.C.S. §1229(a).
STATEMENT OF THE FACTS
Substantive allegations are set forth in Administrative Record of this case. Tonya Udoh
(“Tonya”) is the mother of four minor children, K.K.W., KC.W., C.U., and C.U. Emem Udoh
(“Emem”) is Tonya’s husband, the father of C.U., and C.U., and the stepfather of K.K.W., and
K.C.W. Tonya was a social work student and a DHS-licensed certified nursing assistant. Emem
was a Software Engineer at Stratasys, Inc.
A. Newly Discovered Evidence of Witnesses’
Petitioner’s Post-Conviction In 2018.

Recantation

Discovered

In

On April 10, 2018, Mr. Udoh initiated a State post-conviction action raising several issues
or claims of constitutional violations and seeking reliefs. Amongst the issues or claims raised for
post-conviction relief, Mr. Udoh raised the Ground that - Mr. Udoh is entitled to an acquittal and
release based on the newly discovered exonerating evidence showing actual innocence which is
based on recantations of key material witnesses’ testimony for relief as described in Mr. Udoh
first post-conviction petition. Mr. Udoh’s first post-conviction petition was supported by
Recantations Affidavits by K.K.W., and K.C.W. to Judge Tamara Garcia Report and was filed on
April 10, 2018 in the State District Court. Mr. Udoh sought relief for an evidentiary hearing to
be held to examine the material facts and allegations surrounding Mr. Udoh’s first post­
conviction petition. On June 15, 2018, the State post-conviction court issued an order denying
Petition By Udoh - Page 5

■}

the post-conviction petition in part and granting an evidentiary hearing in part on the issue of
witnesses’ recantation.
B. Evidentiary Hearing Testimony Of The Recanting Witnesses’ (K.K.W., and
K.C.W.) For Newly Discovered Evidence, And To Vacate The Judgement And Order.
The recantation affidavits from K.K.W and K.C.W were re-signed by K.K.W and K.C.W. at
the evidentiary hearing. Both the re-signed signatures from K.K.W and K.C.W matched the
March 2018 affidavits. The recantation affidavits from K.K.W and K.C.W were entered as
evidence into the evidentiary hearing record without an objection (Tr. 166 - 167; Tr. 235 - 237)
as Exhibits 1 and 2 in (Vol. II) transcripts. The recantation affidavits and recantation testimony
are exculpatory facts clearly showing that no incident of sexual abuse happened between April
2012 through February 2013 in Defendant’s home or within the Hennepin County Jurisdiction.
The recantation affidavits and recantation testimony are impeachment evidence related to the
threats, the demands, the pressure, the coaching, the coercions, the benefits, and the promises
made to K.K.W. and K.C.W. to give a statement of sexual abuse against Defendant between
February 2013 through August 2014, and a trial testimony of sexual abuse against Defendant in
August 2014.
After receiving evidentiary hearing testimony from K.K.W. and K.C.W., Defendant re­
requested or renewed his motion for subpoena(s) to call - Ms. White, Christa Groshek, Kelly
Moore, Davi E. Axelson, Donothan Bartley, Ann Norton, Melissa Malecha, Molly Lynch, Joanne
Wallen, Karen Wegerson, Ann Mock, Bill Koncar, Grace Werner Ray, Dr. Linda Thompson,
Catrina Blair, Patricia Harmon - as witnesses to the case because he has produced enough
evidence for them to be a witness in this case (Tr. 340 - 348).

Petition By Udoh - Page 6

;

C.

Appellant’s Ongoing Cases In State And Federal Courts.
Petitioner currently has the following cases in State Court at the Minnesota Supreme

Court in State v. Udoh. Case No. A20-0633 (Minn. Sup. Ct. 2021). Petitioner sent an application
to the Eighth Circuit Court seeking authorization to file a second or successive habeas corpus
petition. See Udoh v. Janssen. Civil No. 21-CV-0099 (WMW/LIB) in the District Court of
Minnesota, and Udoh v. Janssen. USCA8 Case No. 21-1105 (8ThCir. Minn., 2021).
REASONS FOR GRANTING THE WRIT
The issues presented in this case is beyond the particular facts and parties involved but
for growing interest of the public, society at large and integrity of the judicial system. The lower
courts holding cannot be squared or reconciled with this Court’s decisions on constitutional law.
Most significantly, the lower courts decided important constitutional claims in a way that
conflicts with relevant decisions of this Court and has so far departed from the usual and
accepted course of justice. Allowing such decision to hold will affect other similarly situated in
Petitioner’s situation.
This appeal concerns the issues of whether Respondent violated Petitioner’s clearly
established rights or laws under United States Constitutions. Remand for consideration of
Petitioner’s habeas petition for relief is merited under the principle of Judicial Notice1 because
the record do in fact entail adverse collateral legal consequences, such as the immigration
removal proceeding2, juvenile proceeding3 and lifetime supervised release.

1 See Smisek v. Comm’r of Pub. Safety, 400 N.W. 2d 766, 768 (Minn. App. 1987) that “[a]n
appellate court may take judicial notice of a fact for the first time on appeal.”
2 See the May 31, 2019 Federal Magistrate Judge Report and Recommendation in 19-CV1311(MJD-HB) as facts related to the immigration or removal proceeding. See also the InAbsentia Order entered on April 17, 2019 in Exhibit 1 at ECF No.l - 2 at 1 — 21 on 19-CVPetition By Udoh - Page 7

s

Remand for consideration of Petitioner’s habeas petition for relief is merited under the
reasoning applied in Archuleta v. Hedrick, 365 F.3d 644, 648 - 49 (8th Cir. 2004) where this court
remanded the matter to the district court because petitioner had cognizable claim that could lead
to his release under 28 U.S.C. §2241(c)(3). See 28 U.S.C. §2241(c)(3)(when a Petitioner is in
custody in violation of the Constitution or laws or treaties of the United States). In this case,
Petitioner’s motion for release was denied as moot.
Remand for consideration of Petitioner’s habeas petition for relief is merited under the
reasoning applied in Brewer v. Iowa, 19 F.3d 1248, 1250 (8th Cir. 1994)(held that a habeas corpus
action is moot when there is no possibility that any collateral legal consequences will be imposed
on the basis of the challenged conviction); Leonard v. Nix, 55 F.3d 370, 373 (8th Cir. 1995)(held
that only the possibility of a collateral legal consequences is needed to avoid mootness). This
habeas corpus action is not moot when there is a possibility of collateral legal consequences
already imposed on the basis of the challenged conviction in this case. The Brewer v. Iowa’s and
Leonard v. Nix’s courts considered the habeas petition because of the possibility of adverse
collateral legal consequences. Both courts proceeded to consider the merit of the habeas corpus
action. See Glenn u. Dallman, 686 F.2d 418, 422 (6th Cir. 1982); State v. Thompson, 1996 WL
653951 *3 (Minn. Ct. App. 1996); In re Welfare of L.B., 404 N.W.2d 341 (Minn. Ct. App. 1987);
State v. Jones, 516 N.W.2d 545, 549 n.l (Minn. 1994); Sibron v. New York, 392 U.S. 40, 55 (1968).

1311(MJD-HB), 8 U.S.C. §1101 et seq, 8 U.S.C §1101(a)(43)(A), (F); 8 U.S.C. §1227(a)(2)(E)(i), 8
U.S.C. §1229a.
3 See the August 06, 2019 (recognizing the termination of parental rights in the juvenile court
case 27-JV-18-5208) and September 18, 2019 (recognized the lifetime conditional or supervised
release conditions) court orders where this court recognized those proceedings and conditional
release. See also Minn. R. Evid. 201; Minn. Stats. §599.04, §599.10.
Petition By Udoh - Page 8

Remand for consideration of Petitioner’s habeas petition for relief is merited under the
reasoning applied in Kuhlmann v. Wilson, All U.S. 436, 454 (1986) because that the “end of
justice” permits a district court to examine the merits of a successive petition “only where the
prisoner supplements his constitutional claim with a colorable showing of factual innocence.” In
this case, Petitioner supplemented his constitutional claims “including prosecutorial misconduct
ineffective assistance of counsel,” with a colorable showing of actual innocence in the “newly
discovered evidence.” See Udoh v. Knutson, 2019 WL 5150141 *2 (D. Minn. May 31, 2019). The
Seventh Circuit in Mosley v. Atchison, 689 F.3d 838, 854 (7th Cir. 2012) remanded the habeas
petition and directed the district court to consider the evidence presented in the evidentiary
hearing, to hold a new hearing, or both, and to determine whether, based on new evidence, trial
counsel was, constitutional ineffectivie.
Remand for consideration of Petitioner’s habeas petition for relief is merited under the
reasoning applied in Glenn v. Dallman, 686 F.2d 418, 422 — 23 (6th Cir. 1982) where the
appellate court reversed and remanded with instruction to the district court to reclassify the
Petitioner’s conviction due to adverse collateral consequences that could result if the conviction
was not reclassified. At this point, Petitioner is asking that this court remand to the district
court to address Petitioner’s petition.
Remand for consideration of Petitioner’s habeas petition for relief is merited because as
Petitioner’s had no access to the use the prison law library during the pendency of the
immigration proceeding. This restriction is inconsistent with this court holding in Flittie v.
Solem, 827 F.2d 276, 280 (8th Cir. 1987) (held the use of the prison law library on an average of
three (3) days per week is a reasonable restriction imposed for a rational reason).

Petition By Udoh - Page 9

Remand for consideration of Petitioner’s habeas petition for relief is merited under the
reasoning and in light of Kucana\ Pereira; Sugule; Miah; Dada; and Williams - Igwonobe u.
Gonzales; Ghounem holding to show that the Board of Immigration Appeal erred in its decision
to reopen the In-Absentia Order. Id. This further underscores the importance of granting review
in this case.
I.

THE BOARD OF IMMIGRATION APPEAL SHOULD HAVE GRANTED
PETITIONER’S REQUEST FOR EXTENSION OF TIME DUE TO PETITIONER’S
LACK OF ACCESS TO THE PRISON LAW LIBRARY RESULTING FROM THE
SPREAD OF COVID-19 CORONAVIRUS PANDEMIC IN MINNESOTA
DEPARTMENT OF CORRECTIONS.
Petitioner, Emem Ufot Udoh, incorporates and adopts as if re-alleged herein the factual

allegations and arguments in:
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 201-0 at 1-2 through 201-4 at 10; Udoh v. Knutson,
Civil No. 0:19-CV-1311(MJD/HB), Docket No. 82-1 at 1-35; Udoh v. Dooley, Civil No.
0:16-CV-4174 (PAM/HB), Docket No. 62-1 at 1- 35 (Evidence In Support Of Lack Of
Access To The Prison Law Library To File A Brief In A19-1129):
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 195 at 1 - 5, Docket No. 199-1 at 1 - 5; Udoh v.
Knutson, Civil No. 0:19-CV-1311(MJD/HB), Docket No. 76 at 1, 76-1 at 1-5, 76-2 at
1, Docket No. 79 at 1, 79-1 at 1-5, 79-2 at 1;
Udoh v. Dooley, Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 59 at 1, 59-1 at 1 - 5
(Extraordinary Circumstances Exist In This Case To Justify The Reliefs
Requested);
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 197 at 1 - 4, Docket No. 199 at 1-5; Udoh v. Knutson,
Civil No. 0:19-CV-1311(MJD/HB), Docket No. 81-1 at 1 - 4; Udoh v. Dooley, Civil No.
0:16-CV-4174 (PAM/HB), Docket No. 63-1 at 1-5 (Evidence In Support Of
Petitioner’s Denial And/Or Lack Of Access To The Prison Law Library To Appeal
A19-1129 Case At The Minnesota Court Of Anneals Due To Coronavirus (Covid-19)
Pandemic);
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 205 at 1 - 32; Udoh v. Knutson, Civil No. 0:19-CV1311(MJD/HB), Docket No. 83-1 at 1 - 32; Udoh v. Dooley, Civil No. 0:16-CV-4174
Petition By Udoh - Page 10

(PAM/HB), Docket No. 64-1 at 1 - 32 (Judicial Notice Of A Proceeding In Carlton
County District Court Regarding Coronavirus Pandemic Found In The Minnesota
Department Of Correction. Filed By American Civil Liberties Union. On A Petition
For Mandamus And Writ Of Habeas Corpus):
Udoh v. Dooley, Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 69-3 at 1 - 10
(March 02. 2020 Order From Hennepin County District Court In Exhibit 5). Docket
No. 69-4 at 1 — 46 (Respondent Actions That Prevented Petitioner From Fully And
Fairly Presenting His Case For Relief In Exhibit 6);
Udoh et al v. Minnesota Department of Human Services et al, 2020 U.S. Dist. LEXIS
84151 *1 - *9 (D. Minn. May 13, 2020), Civil No. 0:16-CV-3119 (PJS/SER);
Udoh v. Dooley, 2020 U.S. Dist. LEXIS 123571 *1 - *6 (D. Minn. July 14, 2020),
Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 73;
into this Petition for Certiorari as “extraordinary and/or exceptional circumstances” that justifies
the reliefs requested and to show that the Board of Immigration Appeals should have granted
Petitioner’s request for an extension of time at the Board of Immigration Appeal. This is a
showing of good cause to grant Petitioner’s request for an extension of time for lack of access to
the prison law library due to Coronavirus pandemic in light of Flittie v. Solem. 827 F.2d 276, 280
(8th Cir. 1987)(meaningfully access to court would require at least 3 days per week at the Prison
law library under restricted status); Bound v. Smith, 430 U.S. 817 (1977) (prisoner’s right of
access to court).
II.

THE BOARD OF IMMIGRATION APPEAL SHOULD HAVE GRANTED
PETITIONER’S REQUEST FOR EXTENSION OF TIME TO OBTAIN THE
RECORD AND TRANSCRIPTS OF THE IMMIGRATION HEARINGS TO FULLY
AND FAIRLY PRESENT HIS CASE FOR REOPENING.
Petitioner, Emem Ufot Udoh. incorporates and adopts as if re-alleged herein the factual

allegations and arguments in:
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 201-0 at 1-2 through 201-4 at 10; Udoh v. Knutson,
Civil No. 0:19-CV-1311(MJD/HB), Docket No. 82-1 at 1-35; Udoh v. Dooley, Civil No.
0:16-CV-4174 (PAM/HB), Docket No. 62-1 at 1- 35 (Evidence In Support Of Lack Of
Access To The Prison Law Library To File A Brief In A19-1129);
Petition By Udoh - Page 11

Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 195 at 1 - 5, Docket No. 199-1 at 1 - 5; Udoh v.
Knutson, Civil No. 0:19-CV-1311(MJD/HB), Docket No. 76 at 1, 76-1 at 1-5, 76-2 at
1, Docket No. 79 at 1, 79-1 at 1-5, 79-2 at 1;
Udoh v. Dooley, Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 59 at 1, 59-1 at 1 - 5
(Extraordinary Circumstances Exist In This Case To Justify The Reliefs
Requested):
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 197 at 1 - 4, Docket No. 199 at 1-5; Udoh v. Knutson,
Civil No. 0:19-CV-1311(MJD/HB), Docket No. 81-1 at 1 - 4; Udoh v. Dooley, Civil No.
0:16-CV-4174 (PAM/HB), Docket No. 63-1 at 1-5 (Evidence In Support Of
Petitioner’s Denial And/Or Lack Of Access To The Prison Law Library To Appeal
A19-1129 Case At The Minnesota Court Of Appeals Due To Coronavirus (Covid-19)
Pandemic):
Udoh et al v. Minnesota Department of Human Services et al, Civil No. 0:16-CV3119 (PJS/SER), Docket No. 205 at 1 - 32; Udoh v. Knutson, Civil No. 0:19-CV1311(MJD/HB), Docket No. 83-1 at 1 - 32; Udoh v. Dooley, Civil No. 0:16-CV-4174
(PAM/HB), Docket No. 64-1 at 1 - 32 (Judicial Notice Of A Proceeding In Carlton
County District Court Regarding Coronavirus Pandemic Found In The Minnesota
Department Of Correction. Filed By American Civil Liberties Union. On A Petition
For Mandamus And Writ Of Habeas Corpus):
Udoh v. Dooley, Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 69-3 at 1 - 10
(March 02, 2020 Order From Hennepin County District Court In Exhibit 5). Docket
No. 69-4 at 1 - 46 (Respondent Actions That Prevented Petitioner From Fully And
Fairly Presenting His Case For Relief In Exhibit 6):
Udoh et al v. Minnesota Department of Human Services et al, 2020 U.S. Dist. LEXIS
84151 *1 - *9 (D. Minn. May 13, 2020), Civil No. 0:16-CV-3119 (PJS/SER);
Udoh v. Dooley, 2020 U.S. Dist. LEXIS 123571 *1 - *6 (D. Minn. July 14, 2020)
Civil No. 0:16-CV-4174 (PAM/HB), Docket No. 73;
into this Petition for Certiorari as “extraordinary and/or exceptional circumstances” that justifies
the reliefs requested and to show that the Board of Immigration Appeals should have granted
Petitioner’s request for an extension of time for lack of access to the Prison Law Library and to
obtain the record and transcripts of the immigration hearings to meaningfully, adequately and
fairly present his case at the Board of Immigration Appeal, in light of Bound v. Smith. 430 U.S.
Petition By Udoh - Page 12

817 (1977) (prisoner’s right of access to court) ; Hebbe v. Pliler, 627 F.3d 338, 342 - 43 (9th Cir.
2010)(possible constitutional violation when prisoner denied access to prison library, preventing
him from filing a brief in appeal of his state conviction) reasoning; Skinner v. Switzer, 131 S. Ct.
1289, 1293 - 94 (2011)(held prisoner’s Fourteenth Amendment right of access to evidence to
undergo a civil proceeding or testing in state or federal court); Kennedy v. Lockyer, 379 F.3d
1041, 1054 (9th Cir. 2004) (held that failure to provide Defendant with a complete transcript of
prior proceedings had a “substantial and injurious effect on the jury verdict”); Britt v. North
Carolina, 404 U.S. 226, 227 (1971) (the agency must provide an indigent defendant with a
(

transcript when that transcript is needed for an effective defense or appeal); United States v.
MacCollom, 426 U.S. 317, 320 — 21 (1976)(same); State v. Beecroft, 813 N.W.2d 814, 842 (Minn.
2012)(recognized that a “meaningful access to justice and the due process right to present a
complete defense encompass a right to the basic tools of an adequate defense”). This implicates
Defendant’s right of access to court under Bound v. Smith.
III.

THE LOWER COURT JUDGEMENT THAT AFFIRMED THE IN-ABSENTIA
ORDER SHOULD BE VACATED IN LIGHT OF: (A) PETITIONER’S ACTUAL
INNOCENCE CLEARLY DEMONSTRATED IN THE ADMINISTRATIVE
RECORD; (B) PETITIONER’S ONGOING PROCEEDINGS IN STATE AND
FEDERAL COURTS; (C) PETITIONER’S NOTIFICATION TO THE COURT OF
THIS CHANGE OF ADDRESS ON FEBRUARY 2019 PURSUANT TO 8 U.S.C.S.
§1305; (D) THE FACT THAT NOTICE TO APPEAR AND HEARING WAS NOT
SENT TO PETITIONER’S ADDRESS AFTER THE CHANGE AS REQUIRED
UNDER 8 U.S.C.S. §1229(A); AND (E) THIS ABSENTIA ORDER VIOLATES
PETITIONER’S DUE PROCESS FOR FAILURE TO NOTIFY PETITIONER OF
HIS HEARING AND TO APPEAR EVEN WHERE PETITIONER NEVER SPOKE
OR SAW A JUDGE, WAS NEVER CALL OR SUBPOENAED TO ANY HEARING,
NEVER
PARTICIPATED
OR
CONSENTED
IN
ANY
TELEPHONIC
CONFERENCE.
Petitioner seeks appropriate relief in the form of an Order reopening the Removal

Proceeding under Reyes Mata v. Lynch, 135 S. Ct. 2150 (2015)(held Petitioner has a statutory
right to file a motion to reopen under 8 U.S.C.S. §1229a(C)(7)(A)); Dada v. Mukasey, 554 U.S. 1,
»

Petition By Udoh - Page 13

12 (2008)(a motion to reopen is a form of procedural relief that ask the Court to change its
decision in light of newly discovered evidence [in Exhibit 1, 2, see ECF No. 1-3 at 1 - 181]
or a change in circumstances) pending the federal court resolution of Petitioner’s actual
innocence application under 28 U.S.C §2241. This Court has jurisdiction over Petitioner’s Motion
to Reopen the Removal Proceeding pursuant to 8 U.S.C. §1229a. The venue is proper in this
Court. The factual allegations in this motion to reopen are new facts that will be proven at the
hearing to be held, and are supported by affidavits and other evidentiary material in Exhibits 1
through 5.
An

Order

to

reopen

the

removal proceeding should

issue

because

changed

circumstances in the applicable crime on May 31, 2019 is clearly proven by the Magistrate
Judge holding in 2019 WL 5150141 *2. ECF No. 5, as incorporated herein in this motion above,
that Petitioner “was [wrongfully] convicted in state court on one count of’ the applicable crime.
The Magistrate Judge holding vacates each and every administrative allegations and charges
bearing upon moral turpitude, which requires two or more separate or multiple crimes not
arising out of a single scheme of criminal misconduct, such as those enumerated in 8 U.S.C.
§ 1227(a)(2)(A)(i) and (ii).
An

Order

to

reopen

the

removal proceeding

should

issue

because

changed

circumstances in the applicable law on April 17, 2018 is clearly proven by the Supreme Court
decision in Session v. Dimaya, affirming the Ninth Circuit holding that 18 U.S.C. §16(b), as
incorporated in the Immigration and Nationality Act, is unconstitutional vague. 200 L. Ed 2d
549, 138 S Ct. 1204. The Supreme Court holding in Session v. Dimaya vacates each and every
administrative allegations and charges bearing upon the “residual clause” of 18 U.S.C. §16(b) as
a “crime of violence” by DHS, because the April 17 holding provided that the residual clause of 18
Petition By Udoh - Page 14

U.S.C. §16(b) defining “crime of violence” was unconstitutionally vague - that is, too arbitrary
and indistinct to comport with the constitution’s guaranteed of due process. Id 1212 — 13. The
Supreme Court clearly ruled against removal under 8 U.S.C. §1101 et seq. This holding
implicates all administrative allegations and charges bearing on “crime of violence,” such as 8
U.S.C §1101(a)(43)(A), (F)(a “crime of violence” as defined in section 16 of the title 18, United
States Code) and 8 U.S.C. §1227(a)(2)(E)(i)(domestic violence and abuse for the purpose of this
clause means any “crime of violence” as defined in section 16 of title 18, United States Code).
This change in circumstances materially affects Petitioner’s motion to reopen the
removal proceeding, including changes in the applicable law and crime. Under 8 U.S.C. § 1229a,
the failure to grant the Reliefs requested will “result in a fundamental miscarriage of justice” in
light of the newly discovered evidence (Exhibit 1, 2 and 3, see ECF No. 1-3 at 1 - 181) that
demonstrate and establish Petitioner’s actual innocence because it was more likely than not that
no reasonable juror would have convicted Petitioner in light of the new evidence in Exhibit 1, 2
and 3.
An Order to reopen the removal proceeding should issue because on February 22, 2019
Petitioner was on a Writ to a State Court Hearing at Hennepin County Court and his address
changed. Pursuant to 8 U.S.C.S. §1305, Petitioner notified the Court and DHS of this change of
address. 8 U.S.C.S. §1305 requires only a written notice of change of address, but no Notice to
Appear was sent to Petitioner’s new/change of address for the hearing. Petitioner did not receive
any Notice to Appear for hearing as required under 8 U.S.C.S. §1229(a) from DHS. This violates
Petitioner’s due process clause for failure to notify Petitioner of his Hearing as required by 8
U.S.C.S. §1229(a). See Contreras-Rodriguez u. United States AG, 462 F.3d 1314 (11th Cir.

Petition By Udoh - Page 15

2006)(held a motion to reopen in absentia proceeding can be made at any time if the Petitioner
can show that he did not receive notice. 8 C. F. R. §1002.23(b)(4)(ii)).
An Order to reopen the removal proceeding should issue because Petitioner did not
consent to any telephonic conference and no video conference was held as required by 8 U.S.C.S.
§ 1229(a). See the Magistrate Judge holding in n.2 that “[e]ven if Udoh is correct that this
amounts to a violation of his constitutional rights, he nevertheless has the opportunity to raise
that objection through the immigration proceeding themselves.” Thus, having a hearing in the
absence of Petitioner, even after Petitioner requested by writing for a video conference clearly
violates Petitioner’s due process right. See Earl v. Fabian, 2010 WL 1780189 *2 (D. Minn. 2010)
where the Magistrate Judge conducted a hearing and the “Petitioner appeared via interactive
video conference.” This clearly supports the fact that the Department of Correction (“DOC”) have
system-in-place with sworn affidavits of other aliens who will testify to having their removal
proceeding hearing done via video conferencing in a place called Unit 4. Petitioner never spoke or
saw a Judge at the alleged April 17, 2019 hearing or in this proceeding. Petitioner was never call
or subpoenaed to any hearing in this proceeding as a pro se litigant in “State Custody.” Petitioner
never participated in any video conference as required by 8 U.S.C.S. §1229(a) and never
consented to any telephonic conference in this proceeding while in “State Custody.” As stated
above, Petitioner did not receive the notice for a hearing under the reasoning of Joshi v. Ashcroft,
389 F.3d 732, 736 (7th Cir. 2004)(“[b]ut when as in this case the issue is not notice but receipt,
because the statute allows an alien ordered removed in an absentia proceeding to reopen the
proceeding if he did not receive notice even if the notice was sent, whether or not it was received,
satisfied the statutory and constitutional requirements, the intended recipient’s affidavits of non­
receipt is evidence”):
Petition By Udoh - Page 16

Under 8 U.S.C.S. §1229a(b)(5)(C)(i) and (ii), Petitioner clearly shows that this
motion to reopen is filed within 180 days after the date of the order of removal.
Petitioner clearly shows that the factual allegation in this motion clearly
demonstrates that the failure to appear was because of exceptional circumstances
as defined in subsection (e)(i). This motion to reopen is filed at any time because the
factual allegations in this motion clearly shows that Petitioner did not receive the
notice in accordance with paragraph (1) or (2) of section 239(a) [8 U.S.C.S.
§ 1229(a)], Petitioner clearly shows that the factual allegation in this motion
demonstrates that he was in State Custody and the failure to appear was through
no fault of the Petitioner. The filing of this motion to reopen described in clause (1)
and (ii) shall stay the removal proceeding pending disposition of the motion by the
Judge.
Petitioner’s ongoing State and Federal Court proceedings include
substantial claims and closed questions that could result in a vacatur, new trial or
reversal of this wrongful conviction and unlawful sentence. See Hacker v. Fed. BOP,
450 F. Supp. 2d 705 (E. D. Mich. 2006) (the court held that 28 U.S.C. §2241 was the
appropriate vehicle for an inmate to challenge the manner in which his sentence
was executed). These ongoing State and Federal Court proceedings include
coupled with Petitioner’s actual innocence and supporting evidence in Exhibit 1, 2
and 3 (ECF No. 1 - 3 at 1 - 181) demonstrates a likelihood of success that the §2254
Actual Innocence petition will prevail on the merits. These are extraordinary,
exceptional and compelling circumstances beyond the control of Petitioner and
reasons to grant the Reliefs requested in this motion.
Petitioner’s actual innocence with supporting newly discovered evidence in Exhibit
1, 2 and 3, ongoing State and Federal Court proceedings, Petitioner’s
wrongful conviction and unlawful sentence, disclosure of confidential and privileged
communication to Hennepin County Attorneys and the Absentia Order are
extraordinary, exceptional and compelling circumstances beyond the control of
Petitioner and reasons attending to Petitioner’s situation warranting the grant of
the Reliefs. These circumstances, including the ongoing State and Federal Court
proceedings and the Absentia Order proceedings makes this case materially
distinguishable from other cases. The Absentia Order proceeding constitutes
significant deprivation of Petitioner’s right that will cause irreparable harm to the
Petitioner. See Baptiste u. AG United States, 841 F.3d 601, 615 n.17 (3rd Cir. 2016)
(“... because deportation strips a non-citizen of his rights”); Shuti v. Lynch,
828 F.3d 440, 446 (6th Cir. 2016) (same); Dimaya v. Lynch, 803 F.3d 1110 (9th Cir.
2015)(Petitioner cannot be deprived of life, liberty or property without due process
of law in removal proceeding); Sessions u. Dimaya, 138 S. Ct. 1204 (2018)(same).
An Order to reopen the removal proceeding should issue because the August 17, 2018
Order conferred Petitioner the right to appeal the issues raised in his post-conviction petition.
See Civ. No, 19-CV-1311 (MJD), Exhibit 1 (ECF No. 1 - 2 at 3 - 8). The issues raised in
Petition By Udoh - Page 17

Petitioner’s post-conviction and habeas corpus petition are “substantial claims” and are “closed
questions” that involve judicial bias, ineffective assistance of trial and appellate counsels; Brady
v. Maryland, 373 U.S. 83 (1963) violation; Mooney v. Holohan, 294 U.S. 103, 112 (1935), Pyle v.
Kansas, 317 U.S. 213 (1942), Napue v. Illinois, 360 U.S. 264, 269 (1959), Giglio u. United States,
405 U.S. 150, 152 - 55 (1972), and Youngblood v. W.Va., 547 U.S. 867 (2006) violations;
prosecutorial misconduct, illegal search and seizure, double jeopardy violation under the
reasoning of Mosley u. Atchison, 689 F.3d 838, 854 (7th Cir. 2012)(habeas petition remanded to
determine whether, based on new evidence trial counsel was constitutionally ineffective).
These “substantial claims” are “closed questions” that also involve Petitioner’s substantive
and procedural due process liberty interest that is protected by the Due Process Clause, such as
Petitioner’s liberty interest in his fundamental right to privacy in personal confidential matters,
communications and information under federal and state constitutions, statutes and laws.
Petitioner’s liberty interest in his fundamental right to marry, including marital privacy and
privileges in personal confidential matters, communications and information under federal and
state constitutions, statutes and laws. Petitioner’s liberty interest in his fundamental right to the
care, custody and management of his children and his fundamental right to the privacy of his
familial decisions on the matters of his family under federal and state constitutions, statutes and
laws.
An Order to reopen the removal proceeding should issue because Petitioner protected
liberty interest or legal right was created by the Due Process Clause, by the ongoing state and
federal court proceedings under the reasoning of Gonzales-Fuentes v. Molina, 607 F.3d 864, 890
(1st Cir. 2010) (liberty interest created by lower court decisions). The Ongoing state and federal
court proceedings created this legal right or liberty interest to post-conviction appeal under the
Petition By Udoh - Page 18

'< 111

*

reasoning of Walter v. Griesheim, 990 F.2d 381, 384 (8th Cir. 1993) (liberty interest created by
court order). See Ohio Adult Parole Auth. v. Woodard, 523 U.S. 272, 293 n.3 (1998)(“if a state
establishes post-conviction proceedings, these proceedings must comport with due process”).
Therefore, Minn. Stats. §§590.01 — 06 and Minn. R. Crim. P. 28.02, Subd. 2(1) are state-created
liberty interest or legal right to post-conviction appeal.
An Order to reopen the removal proceeding should issue because the constitution
guarantees prisoners the right to a meaningful access to the courts. Bounds v. Smith, 430 U.S.
817, 828 (1977) (Prisoner have fundamental constitutional right to adequate, effective and
meaningful access to court to challenge violations of constitutional rights); Kristian v. Dep’t of
Corr., 541 N.W.2d 623, 628 (Minn. Ct. App. 1996)(prison inmate have a constitutional right to
access to the court that derives from the due process). Thus under Bounds v. Smith, Petitioner
has a right to the adjudication of his post-conviction appeal. As such, not reopening the removal
proceeding will unreasonably interfere with Petitioner’s due process and fundamental right to
access to court under Bounds v. Smith; Kristian v. Dep’t of Corr and under Marbury v. Madison
holding, Id at 137, where there is a legal right, there is also a legal remedy by suit, or action at
law, whenever that right is invaded. Id. Christopher v. Harbury, 536 U.S. 403, 415 (2002) (to
establish an unconstitutional denial of access to the courts, a prisoner must show a lost
opportunity to pursue a non-frivolous claim).
An Order to reopen the removal proceeding in this case is necessary because the
“substantial claims” presented or raised in Petitioner’s post-conviction and §2254 Actual
Innocence petitions would otherwise escape review entirely under the reasoning of Sampson
v. United States, 724 F.3d 150, 161 (1st Cir. 2013)(writ of advisory mandamus granted where
claims or issues would otherwise escape review entirely); Goff v. Bagley, 601 F.3d 445, 482 (6th
Petition By Udoh - Page 19

'i

Cir. 2010)(7mbeas petition granted unless state courts reopen appeal within 120 days to
permit Petitioner to raise issue or claim of ineffective assistance of appellate counsel).
An Order to reopen the removal proceeding should issue on Petitioner’s Personal
Recognizance resulting from his family ties (see record of Petitioner’s wife and children in the
attached Exhibit 6), no criminal history, actual innocence to this wrongful conviction,
professional employment history and educational background, ties to the community, about three
(3) years remaining from this unlawful sentence, the Absentia Order and, considering the fact
that Petitioner was granted state habeas corpus writs to appear in State Courts on multiple
occasion and Petitioner complied with the strictures of those writs even without being on
shackles and bond. These are extraordinary circumstances and exceptional reasons meriting the
Reliefs requested under the reasoning of Williams-Igwonobe v. Gonzales, 437 F.3d 453 (5th Cir.
2006)(held because there was no valid in absentia order — meaning no hearing on the merit of
the record before the Judge) and Ghounem v. Ashcroft, 378 F.3d 740 (8th Cir. 2004).
Courts have found denial of fundamental fairness to include Petitioner’s circumstances
where an indigent Petitioner does not have the assistance of an Attorney during the immigration
hearing. See Gagnon u. Scarpelli, 411 U.S. 778, 790 (1973) (in certain proceedings, fundamental
fairness requires a right to counsel). Fundamental fairness required the assistance of counsel for
a full and fair immigration hearing and to satisfy the equal protection of law by an impartial
decision-maker. This was a prejudicial error under the reasoning applied in Bucci v. U.S., 662
F.3d 18, 34 - 35 (1st Cir. 2011)(Petitioner entitled to a new immigration hearing and
appointment of counsel because prior immigration hearing for separate defendant, where
petitioner had no counsel, resulted in judgment against both parties); McGriff v. Dep’t of Corr.
338 F.3d 1231, 1235 (11th Cir. 2003)(Petitioner entitled to new immigration hearing and
Petition By Udoh - Page 20

•j

appointment of counsel because the district court failed to appoint counsel at immigration
hearing). This is a showing that the merits of this factual dispute were not resolved in the
immigration court hearing.
The lack of legal representation by a counsel was a structural defect or error warranting
Vacatur because the immigration court left Petitioner to a “proceeding between an individual
and agents of the State ... that amounts to ‘trial-like confrontations,’ at which counsel would help
the accused ‘in coping with legal problems or ... meeting his adversary.

Rothgery v. Gillespie

Cnty., 554 U.S. 191, 212 n.16 (2008); State v. Maddox, 825 N.W.2d 140, 144 (Minn. 2013)(same).
Petitioner was not afforded due process of law under the reasoning applied in Powell v. Alabama,
287 U.S. 45 (1932) that a “hearing includes the right and aid of counsel when so desired. The
ordinary layman, even the intelligent and educated layman, is not skilled in the science of law
and needs the advice and direction of competent counsel. [Petitioner was] in effect denied the
[statutory] right to counsel.”
It cannot be said that it was harmless-error for Petitioner not to have the representation
or services of a legal counsel at the hearing because courts have recognized that “[t]aking
deposition, conducting witness examinations, applying the rules of evidence, and making opening
statements are beyond the ability of most pro se litigants.” James v. Eli, 889 F. 3d 320 (7th Cir.
2018); Walker u Price, 900 F.3d 933 (7th Cir. 2018). The Courts found prejudice because Petitioner
was unable to pursue discovery, subpoena(s) and to properly respond to the situations as the case
became “increasingly complex” as it progressed, which resulted in a decision against Petitioner.
The lack of legal representation for Petitioner at the immigration hearing is a
prima facie showing or evidence of presumed prejudice that “offends some principle
of justice so noted in the tradition and conscience of our people as to be ranked as
fundamental” under the reasoning applied in Green v. United States, 262 F.3d 715
(8th Cir. 2001)(such defect constitutes a structural error); Cooper v. Oklahoma, 517
U.S. 348, 363-65(1996)(a state law or practice that betrays a fundamental principle
Petition By Udoh - Page 21

1
-I

?

of justice offends the Due Process Clause); Chamber v. Mississippi, 410 U.S. 284,
294 (1973)(a state court’s error in applying a state rule can have constitutional
implications); United States v. Vasquez, 7 F.3d 81 (5th Cir. 1993)(failure to appoint
counsel necessitates a Vacatur); United States v. Bendolph, 409 F.3d 155 (3rd Cir.
2005)(prejudice must be presumed when Petitioner statutory right to counsel is
thus abridged).
Prejudice is shown because the requested transcripts of the full immigration hearing was
necessary to remedy Petitioner’s fundamental right.
For the foregoing reasons above, Petitioner prays that this court issue an Order to reopen
the removal proceeding pending the resolution of Petitioner’s actual innocence petition for
fairness, integrity, and the public reputation of the judicial system. It is of the public interest
against the imposition of wrongful conviction and unlawful sentence. See the University of
Michigan,

The

National

Registry

of

Exonerations.

(http://www.law.umich.edu/special/exoneration/Pages/detaillist.asnx). It is of the public interest
in preserving family and not separating parent and children. See Shuti v. Lynch, 828 F.3d 440,
450 - 51 (6th Cir. 2016) and Jordan v. De George, 341 U.S. 223, 243 (1951) (Jackson, J.
dissenting)."Furthermore, Judicial Economy is of the public interest to grant the Reliefs
requested in this motion.
Under the Actual Innocence and Miscarriage of Justice Exception, the failure to
review the claims will “result in a fundamental miscarriage of justice” in light of
the newly presented evidence (Exhibit 1, 2 and 3) that demonstrate and establish
Petitioner’s actual innocence. This exception excuses any procedural default, even
in the absence of cause, because it was more likely than not that no reasonable
juror would have convicted Petitioner in light of the new evidence in Exhibit 1, 2
and 3.
Petitioner has newly discovered exonerating evidence that is material and exculpatory.
This evidence involves the false and inaccurate trial testimony of the state key witnesses.
Petitioner incorporates the transcripts of the held July 27. 2018, July 30. 2018 through August

Petition By Udoh - Page 22

.■ni

01, 2018 evidentiary hearing to this Actual Innocence Petition for relief (See Exhibit 1, 2 and
3).
Petitioner is entitled to an acquittal and release based on the newly discovered
exonerating evidence showing actual innocence based on recantations. See Exhibit 1, 2 and 3.
Petitioner has newly discovered exonerating evidence regarding substantive evidence that was
referenced throughout Petitioner’s evidentiary hearing. Petitioner also incorporates Exhibit 1, 2
and 3 as if re-alleged to this Petition for Review. On June 15, 2018, Honorable Judge Tamara
Garcia issued an order stating, see Id at If2:
The recantations come in the form of notarized affidavits signed by the
[complainants] themselves, thus they bear sufficient indicia of trustworthiness for
the Court to consider them. Assuming then, as it must, that the allegations laid
out in Petitioner’s claim as supported by the affidavits are true, the Court is
persuaded that but for the [complainants’l alleged false testimony, the jury might
have reached a different conclusion. While it is true, as the State points out in its
brief, that both [complainants] were impeached with their character for
untruthfulness and that the motives for fabrication were presented in part at trial,
the fact that the recanting witnesses are the [complainants] in trial is significant.
The State did produce other evidence of Petitioner’s abuse of the [complainants] at
trial, however, all of that evidence was ultimately based on the statements of the
two [complainants]. The Court is not convinced that if these two witnesses
had testified at trial consistent with the affidavits attached to Petitioner’s
petition or were to do so at a new trial, the iurv would reach the same
conclusion.
The evidence in the held July 27, 2018, July 30, 2018 through August 01, 2018
evidentiary hearing, see Exhibit 1, 2 and 3, was said to have been told to Molly
Lynch (Police Officer), Elizabeth Bergman (Therapist) and Prosecutor, all
investigating the false allegations made against Petitioner. Petitioner, the
government, state and Prosecutor suppressed and withheld this evidence either
willfully or inadvertently. Petitioner, the government, state and Prosecutor failed to
turn over evidence that is known to the prosecution, police officers, investigators
and therapist. Petitioner, the government, state and Prosecutor failed to disclose
this evidence that the prosecution, police officer, investigator, therapist and law
enforcements were aware of, to Defense Counsel. Petitioner knowingly presented
false testimony from K.K.W. and K.C.W. to seek wrongful convictions of Mr. Udoh
at trial.

Petition By Udoh - Page 23

r

r»

The Absentia Order dated April 17, 2019 is invalid on the Grounds of Petitioner’s Change of
Address. On February 2019, Petitioner’s addressed changed and pursuant to 8 U.S.C.S. §1305,
Petitioner notified the Court and DHS of this change of address. 8 U.S.C.S. §1305 requires only a
written notice of change of address. Therefore, because the Notice to Appear was not sent to
Petitioner’s new address for the hearing, Petitioner had not received any Notice to Appear as
required under 8 U.S.C.S. § 1229(a) from DHS or the Court. This violates Petitioner’s due process
clause for failure to notify Petitioner’s of his Hearing as required by 8 U.S.C.S. §1229(a).
The Absentia Order dated April 17, 2019 is invalid in light of
(a) the issues raised in Petitioner’s ongoing State and Federal Court
proceedings, (b) Petitioner’s actual innocence clearly demonstrated in Exhibit
1, 2 and 3, (c) Petitioner’s pending court proceedings in State and Federal
Courts, (d) Petitioner’s notification the Court and DHS of this Change of
Address on February 2019 pursuant to 8 U.S.C.S. §1305, (e) the fact that Notice
to Appear and Notice of Hearing was not sent to Petitioner’s address for the
hearing as required under 8 U.S.C.S. §1229(a) from DHS or the Court, and (f)
this Absentia Order violates Petitioner’s due process clause for failure to notify
Petitioner of his Hearing and to Appear as required by 8 U.S.C.S. § 1229(a).
Petitioner never consented to any telephonic conference as required by 8
U.S.C.S. § 1229(a).
See Exhibit 1. Petitioner never spoke or saw a Judge in this proceeding. Petitioner was never
call or subpoenaed to any hearing in this proceeding as a pro se litigant. Petitioner never
participated in any video conference as required by 8 U.S.C.S. §1229(a) and never consented to
any telephonic conference in this proceeding.

Petition By Udoh - Page 24

-\
^I

5.

CONCLUSION
Wherefore, Petitioners pray the court issues a Writ of Certiorari to review the judgment
and opinion of the Eighth Circuit Court of Appeals.
Respectfully Submitted,

Dated: March 1. 2021

U
Emem U. Udoh, 245042
Pro se Litigant,
7600 525™ Street
Rush City, MN 55069

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2(b). Petitioner certifies that this Petition complies with the page
limitation in that rule. According to Microsoft Word 2019, the word processing program used to
produce this Petition, it contains 25 pages.

Dated: March 1, 2021

Respectfully Submitted,

UiAHQa
Emem U. Udoh,
Pro se Litigant, 245042
7600 525th Street
Rush City, MN 55069

Petition By Udoh - Page 25

